<html>
<title> - GOVERNMENTWIDE SPENDING TO COMBAT TERRORISM: GENERAL ACCOUNTING OFFICE VIEWS ON THE PRESIDENT'S ANNUAL REPORT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




GOVERNMENTWIDE SPENDING TO COMBAT TERRORISM: GENERAL ACCOUNTING OFFICE 
                 VIEWS ON THE PRESIDENT'S ANNUAL REPORT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 1999

                               __________

                            Serial No. 106-6

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
56-509 CC                     WASHINGTON : 1999





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  ------ ------
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               ------ ------
HELEN CHENOWETH, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Michele Lang, Professional Staff Member
                        Jonathan Wharton, Clerk
                    David Rapallo, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 11, 1999...................................     1
Statement of:
    Hinton, Henry L., Jr., Assistant Comptroller, National 
      Security and Internal Affairs Division, U.S. General 
      Accounting Office, accompanied by Norman J. Rabkin, 
      Director of Administration of Justice Issues, General 
      Government Division, U.S. General Accounting Office, and 
      Ms. Davi M. D'Agostino, Assistant Director of National 
      Security Analysis, National Security and International 
      Affairs Division, U.S. General Accounting Office...........     3
Letters, statements, etc., submitted for the record by:
    Blagojevich, Hon. Rod R., a Representative in Congress from 
      the State of Illinois, prepared statement of...............     8

 
GOVERNMENTWIDE SPENDING TO COMBAT TERRORISM: GENERAL ACCOUNTING OFFICE 
                 VIEWS ON THE PRESIDENT'S ANNUAL REPORT

                              ----------                              


                        THURSDAY, MARCH 11, 1999

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 pm., in room 
2247, Rayburn House Office Building, Hon. Christopher Shays, 
(chairman of the subcommittee) presiding.
    Present: Representatives Shays, Blagojevich and Mica.
    Also present: Lawrence J. Halloran, staff director and 
counsel; Michele Lang, professional staff member; Jonathan 
Wharton, clerk; Earley Green, minority staff assistant; and 
David Rapallo, minority counsel.
    Mr. Shays. I'd like to call this hearing to order.
    Events like the World Trade Center bombing and the release 
of poison gas in a Tokyo subway crystalize our fears and 
galvanize our determination to confront terrorism. In response 
to a threat that approaches our shores from many directions in 
many forms against many potential targets, more than 40 Federal 
departments, agencies and programs will spend $9.2 billion this 
year to combat terrorism.
    Today we examine those governmentwide efforts to detect, 
deter, prevent and respond to terrorist attacks, continuing 
work begun by this subcommittee's previous chairman, Speaker 
Hastert. We ask how a sprawling and growing anti-terrorism and 
counter-terrorism program is being coordinated across the 
notoriously previously bureaucratic barriers.
    We ask how priorities are set, how risks are measured and 
how responses are designed to augment, not duplicate or replace 
existing local, State and Federal capabilities.
    These are not easy questions. By its very nature terrorism 
is unpredictable, even irrational, and may confound standard 
methods of risk analysis. For example, current threat 
assessments conclude conventional weapons, guns and bombs, 
remain the terrorists most likely choice, but the most unlikely 
threat, the use of biological or chemical weapons to inflict 
mass casualties would have the most devastating consequences.
    Our challenge as a Nation lies in reconciling those aspects 
of the terrorist threat, and calibrating the appropriate 
response.
    How do we do that? According to a series of studies 
undertaken through the subcommittee by the General Accounting 
Office [GAO], the answer has to be better but not good enough. 
Fragmentation and duplication persist in a number of military 
and civilian response units, and in confusing and disjointed 
equipment programs and training efforts.
    While some progress has been made in coordinating crisis 
management and consequent management missions, GAO still sees 
the need for a more risk-based strategy, defined program goals 
and governmentwide budget criteria to ensure the effectiveness 
and efficiency of the effort against terrorism.
    Two years ago, to improve coordination and accountability, 
Congress directed the President and the Office of Management 
and Budget, OMB, to track terrorism-related spending 
governmentwide and report annually on priorities and 
duplication.
    The second annual report issued March 3d describes a far-
reaching and balanced program on which the administration 
proposes to spend $10 billion next year, $10 billion next year.
    According to GAO, the report gives us the first strategic 
insight into the magnitude and direction of Federal funding for 
this priority nationally, security and law enforcement 
concerns. But the report says little about priorities guiding 
the effort, and says less about duplication.
    Early today the subcommittee received a classified briefing 
from Mr. Richard Clark, the National Security Council's 
National Coordinator for Security Infrastructure, Protection 
and Counter-Terrorism. And from Michael Deish, the program 
Associate Director for General Government, Bob Kyle, program 
Associate Director for National Security, both with the Office 
of Management and Budget.
    It was the first administration briefing on the March 3d 
report and offered us the opportunity to discuss both 
procedural and substantive issues candidly.
    The battle against terrorism may be a major focus of this 
subcommittee's work over the next 2 years. Not may be, but will 
be.
    Today and in future hearings we will say much about 
duplication, about the successes and failures of current 
programs, and about the need for clear priorities in meeting 
terrorist threats.
    Mr. Hinton, Mr. Rabkin and Ms. D'Agostino, welcome. The 
subcommittee values your work on these important issues and 
looks forward to your testimony.
    At this time, if you would stand, I'll administer the oath.
    [Witnesses sworn.]
    Mr. Shays. For the record, all three of our witnesses 
responded in the affirmative. I think Mr. Hinton, you have a 
statement and then all three of you respond to questions?
    Mr. Hinton. Correct, Mr. Chairman.
    Mr. Shays. Thank you. You have the floor.
    Mr. Hinton. Thank you, sir.
    Mr. Shays. And given that you are our only witness, just 
feel free to make your statements as you think you need to.
    Mr. Hinton. Thank you very much.

   STATEMENT OF HENRY L. HINTON, JR., ASSISTANT COMPTROLLER, 
 NATIONAL SECURITY AND INTERNAL AFFAIRS DIVISION, U.S. GENERAL 
ACCOUNTING OFFICE, ACCOMPANIED BY NORMAN J. RABKIN, DIRECTOR OF 
ADMINISTRATION OF JUSTICE ISSUES, GENERAL GOVERNMENT DIVISION, 
  U.S. GENERAL ACCOUNTING OFFICE, AND MS. DAVI M. D'AGOSTINO, 
  ASSISTANT DIRECTOR OF NATIONAL SECURITY ANALYSIS, NATIONAL 
   SECURITY AND INTERNATIONAL AFFAIRS DIVISION, U.S. GENERAL 
                       ACCOUNTING OFFICE

    Mr. Hinton. Mr. Chairman, we're pleased to be here to 
discuss our past and ongoing work and observations on Federal 
funding to combat terrorism. To my right is Ms. Davi 
D'Agostino. She's a key person in leading all the work that we 
have been doing, looking across the government programs to 
combat terrorism. And to my left is Mr. Norm Rabkin who is the 
Director for our justice issues group at GAO.
    As you know, over the past 3 years we have studied and 
reported on a number of issues concerning Federal agencies, 
programs and activities to combat terrorism for this 
subcommittee. We previously reported that key Federal agencies 
with responsibilities to combat terrorism spent about $6.7 
billion in fiscal year 1997 for unclassified activities and 
programs.
    That report led to legislation requiring OMB to establish a 
system for collecting and reporting information on executive 
agencies' spending and budgets for combating terrorism. 
Legislation also required the President to annually report this 
information to Congress.
    OMB's recent report identified $10 billion requested for 
programs to combat terrorism in fiscal year 2000.
    My testimony this afternoon, Mr. Chairman, will address 
three issues. First, I will briefly describe the threat as we 
understand it from intelligence analyses. Second, I will 
provide some of our overall observations based on our work. And 
finally I will discuss some steps the executive branch has 
taken for improving cross cutting management and coordination 
and our preliminary observations on OMB's reports to Congress.
    Let me turn to the threat, Mr. Chairman. The U.S. 
intelligence community has continually assessed the foreign 
origin and domestic terrorist threats to the United States. 
According to intelligence agencies, conventional explosives and 
firearms continue to be the weapons of choice for terrorists.
    Terrorists are less likely to use chemical and biological 
weapons, at least partly because they are more difficult to 
weaponize and the results are unpredictable. However, some 
groups and individuals of concern are showing interest in 
chemical and biological weapons.
    With the elevated concerns about terrorism that you 
mentioned, Mr. Chairman, let me focus on the Federal response 
and our observations about it.
    The Federal response has been significant and is evolving. 
As I mentioned earlier, we reported that certain Federal 
agencies spent about $6.7 billion in 1997. For 1999, the 
Congress authorized $9.7 billion, and for 2000, the President's 
budget proposes $10 billion.
    Among the major recipients of this money is the National 
Security community including DOD and intelligence agencies and 
the Departments of Justice, Treasury, Energy and State.
    At the agency level, this growth in the budget has 
translated into rapid increases in funding for selected 
programs and activities to combat terrorism. For example, HHS 
has increased its spending from $7 million in 1996 to about 
$160 million for 1999, and has requested $230 million for 2000 
for its bio-terrorism initiative.
    This initiative is intended to improve disease surveillance 
and communication systems, establish laboratories and continue 
to establish a national pharmaceutical stockpile, conduct 
research into new vaccines and drugs and expand the number of 
local emergency medical teams.
    Justice has also experienced rapid growth in funds budgeted 
for its State and local domestic preparedness programs. Funds 
have increased from zero in 1997 to $21 million in 1998 to $120 
million in 1999, to a fiscal year 2000 budget request of $162 
million to provide training and equipment to local first 
responders and to fund national training centers.
    The FBI more than doubled its resources for combating 
terrorism from about $256 million in 1995 to about $581 million 
in 1998.
    Mr. Chairman, one of our key observations is that the rapid 
program growth has occurred in the absence of, one, a 
governmentwide strategy that includes a defined end-state; two, 
soundly established and prioritized program requirements; and 
three, cross-cutting analyses of agencies' budget proposals to 
ensure that unnecessary duplication and waste are avoided and 
existing Federal, State and local capabilities are fully 
leveraged.
    In this connection, Mr. Chairman, threat and risk 
assessments are widely recognized as sound decision support 
tools to help define and prioritize requirements of a properly 
focused program of investments in combating terrorism.
    Let me highlight the rapid growth in two program areas for 
you that has taken place in the absence of sound threat and 
risk assessment. They are domestic preparedness programs and 
public health initiatives.
    Domestic preparedness funding increased from $42 million in 
1997 to about $1.3 billion requested for a number of agencies' 
preparedness activities in fiscal year 2000. For example, the 
2000 budget proposes an additional $611 million for training, 
equipment and exercising cities' first responders in 
preparation for a potential terrorist attack and for 
strengthening public health infrastructure.
    There are many similar program initiatives across several 
agencies to train and equip local emergency response personnel, 
such as those in fire, police and emergency medical services to 
deal with the consequences of an attack.
    For example, Justice has sponsored training programs and 
implemented equipment programs for State and local responders. 
It is also establishing a center for domestic preparedness at 
Ft. McClellan, AL. FEMA and its National Fire Academy have 
longstanding resident and non-resident training programs in 
emergency management and hazardous materials. FEMA has 
requested about $31 million for fiscal year 2000, a $13 million 
increase over its 1999 funding; $29 of the $31 million in 
fiscal year 2000 is to train and equip State and local 
responders.
    HHS has been establishing metropolitan medical response 
systems with trained and equipped local emergency teams in 27 
cities that also participate in the domestic preparedness 
training and equipment program. HHS has requested 2000 funding 
to include 25 more cities in the program.
    We have also noted growth and potential overlap in Federal 
agencies' response capabilities to support State or local 
incident management. The National Guard's Rapid Assessment and 
Initial Detection teams, also commonly known as RAIDs teams, 
are being created to supplement numerous local, State and 
Federal organizations that can perform similar functions.
    For example, there are over 600 existing local and State 
hazardous materials response teams that can respond to 
terrorist events, including those involving highly toxic 
industrial chemicals.
    Included in the fiscal year 1999 appropriations are $52 
million to establish, train and equip the first 10 of 
potentially 54 RAID teams. We are currently reviewing the roles 
and missions of these teams in response to a request from this 
subcommittee.
    In the public health area, HHS has received about $160 
million in 1999 appropriations and a request of $230 million in 
2000 for a number of initiatives related to the possibility of 
a terrorist event using biological agents.
    HHS expects that creating a national stockpile of millions 
of doses of vaccines for smallpox and anthrax, antidotes for 
chemical agents, antibiotics for other diseases and respirators 
will cost $51 million in 1999 and $52 million in 2000.
    Our preliminary observations are that HHS did not perform a 
complete and formal risk assessment to derive and prioritize in 
accordance with the most likely threats the Nation will face, 
the specific items it plans to procure.
    Several of the items HHS plans to procure do not match the 
intelligence community's judgments on the more likely chemical 
and biological agents a terrorist group or individual might 
use. For example, smallpox and plague are not among the 
intelligence community's list of biological agents that are 
most likely to be used by terrorists, but HHS plans to 
stockpile against these agents and threats.
    Also we are currently reviewing the scientific and 
practical feasibility of a terrorist chemical/biological threat 
for this subcommittee, Senator Spector and Senator Rockefeller, 
and Congressman Skelton, and we will be reporting on the 
results of that review later this summer.
    Last, Mr. Chairman, let me highlight some of the steps the 
administration is taking to address the management and 
coordination of these programs and activities.
    We believe that the OMB reports on governmentwide spending 
and budgeting to combat terrorism are a significant step toward 
improved management and coordination for the complex and 
rapidly growing programs and activities. For the first time, 
the executive branch and Congress have strategic insight into 
the magnitude and direction of Federal funding for this 
priority national security and law enforcement concern.
    The 1999 report provided additional analyses and more 
detailed information than the 1998 report on budgeting for 
programs that deal with weapons of mass destruction.
    In discussing the reports, OMB officials told us that a 
critical piece of the budget and spending in this picture, 
threat and risk assessment--that would suggest priorities and 
appropriate counter-measures.
    We have not fully evaluated the processes or the 
methodologies the executive branch agencies used to derive the 
information in these reports. As a result, we're not in a 
position to comment on whether or to what extent the reports 
reflect the best possible estimate of costs associated with 
programs and activities to combat terrorism.
    However, notably absent from the report was any discussion 
about established priorities or efforts to reduce or eliminate 
duplicate programs or activities across government.
    Another important step toward improving inter-agency 
management and coordination was the Attorney General's December 
1998 classified 5-year inter-agency plan on counter-terrorism 
and technology crime.
    The plan includes goals, objectives, performance indicators 
and recommends that specific actions be taken to resolve inter-
agency problems and issues that are identified, and assigns 
relative priorities to the actions.
    The classified plan represents a substantial inter-agency 
effort, and was developed and coordinated with 15 Federal 
agencies with counter-terrorism roles.
    As with the OMB report, Mr. Chairman, the plan generally 
does not lead to recommended actions and priorities to budget 
resources, although the document states that the agencies hope 
to improve the link between the plan and resources and 
subsequent updates
    In May 1998, last year, the President designated a National 
Coordinator for Security Infrastructure Protection and Counter-
Terrorism. We heard this morning, he was not to direct 
agencies' activities, but is to integrate the government's 
policies and programs on unconventional threats to the homeland 
and Americans abroad, including terrorism.
    The National Coordinator is also to provide advice in the 
context of the annual budget process regarding the budgets for 
counter-terrorism. We understand he has established a number of 
working groups, Mr. Chairman, but we have been unable to obtain 
any further information about their roles.
    In summary, the Federal agencies have been moving out with 
a variety of initiatives to create new Federal response 
elements, new training and equipment programs and facilities 
for State and local responders, and a number of the 
preparedness programs.
    The Congress has been supporting these initiatives and 
activities to prepare for a possible terrorist incident with 
regular, supplemental and emergency authorizations and 
appropriations.
    Our message today is not that the government should not be 
spending funds on programs that combat terrorism. Our message 
is that we see some very important things missing from the 
picture.
    First, what is missing is a strategy with a vision of an 
end-state. What I mean is, how do all these individual agency 
initiatives fit together with each other, and importantly, with 
existing Federal, State and local capabilities and assets.
    Is the vision of the end-state for the Nation that every 
city, town and rural community in American have its own organic 
capability to respond to a chemical and biological terrorist 
attack?
    Second, we are missing sound threat and risk-based 
requirements for the many programs, activities and initiatives, 
and linked with those assessment requirements, governmentwide 
activities and programs being prioritized along the lines for 
more likely threats and high-risk incidents that the Nation may 
face.
    Without such assessments, requirements and priorities, one 
cannot be confident that you're spending moneys on the right 
programs and in the right amounts.
    Third, we would expect to see a comprehensive inventory of 
existing Federal, State and local assets and capabilities and 
assurances that they are being leveraged, and not excessively 
duplicated.
    And finally, we would expect to see a process established 
and implemented to identify duplication and overlapping 
capabilities and programs.
    We have made a number of recommendations, Mr. Chairman, 
that, if properly implemented, would result in a more focused 
approach to investing in combating terrorism from a 
governmentwide perspective than what we have observed.
    For example, we have recommended that the National Security 
Council in consultation with the Director of OMB and the other 
executive branch agencies take steps to ensure that 
governmentwide priorities to combat terrorism are established.
    We also recommended that OMB review on funds budgeted and 
spent by executive departments and agencies to among other 
things ensure that programs are based on analytically sound 
threat and risk assessment, and avoid unnecessary duplication.
    Unfortunately the executive branch has not fully embraced 
those recommendations to date, Mr. Chairman. That concludes my 
statement. My colleagues and I will be prepared to answer your 
questions.
    Mr. Shays. Thank you very much, Mr. Hinton. Before I 
recognize Mr. Blagojevich, who is the ranking member, I just 
would ask unanimous consent that all the members of the 
subcommittee be permitted to place an opening statement in the 
record, and that the record remain open for 3 days for that 
purpose. Without objection so ordered, and I'll also ask for 
the unanimous consent that our witnesses be permitted to 
include their written statements in the record. Without 
objection, so ordered.
    Do you have any statement you would like to make before 
we----
    Mr. Blagojevich. Just briefly, Mr. Chairman. I have a 
statement, and in the interest of time and brevity I will put 
it in the record.
    [The prepared statement of Hon. Rod R. Blagojevich 
follows:]
[GRAPHIC] [TIFF OMITTED] T6509.001

[GRAPHIC] [TIFF OMITTED] T6509.002

[GRAPHIC] [TIFF OMITTED] T6509.003

    Mr. Shays. Mr. Hinton, maybe I could ask you, do you have 
any comment that you would want to put on the record based on 
the briefing that we had earlier in the day? Is there any 
statement that you think would make sense to put on the record?
    Mr. Hinton. Yes, I would offer a few comments, Mr. 
Chairman. I think the OMB and NSC description that this whole 
area and the Federal response is evolving. I think that it's 
true, I think there have been some significant steps on the 
part of the administration based on the work that we have seen, 
and that is the OMB reports. I think that is offering 
tremendous insight in terms of the funding that is planned that 
we've seen in the 1998 and 1999 programs.
    Second, I think the 5-year plan of the Attorney General--
that's the classified plan I made reference to, I think in 
terms of what its outlined as some recommendations for the 
inter-agency community. This is another important step.
    What I haven't seen, Mr. Chairman, yet, is what a spending 
plan might look like across government outyears, and what the 
chief priorities may be within that spending plan. That would 
give us some insight as to where the dollars are going, and 
what these programs would really be going after in terms of the 
gaps that they're trying to fill.
    Mr. Shays. Is it your view that the March 12, 1998 report 
from Mr. Rands and the March 3, 1999 report of Mr. Liu--they're 
both Directors at OMB, have been helpful documents?
    Mr. Hinton. Yes, sir. In terms of bringing some insight 
into the spending. Notably absent is linkage to chief 
priorities that we would expect to see over time. There is a 
statement in the plan that they hope shortly to be making 
linkages from the dollars that we're seeing to some of the 
broader priorities for the effort. And I think as that evolves, 
that will be tremendously helpful to this committee and the 
other authorization and appropriations committees up here on 
the Hill.
    Mr. Shays. The position that was established by the 
President, the National Security Council's National Coordinator 
for Security Infrastructure, Protection and Counter-Terrorism, 
occupied by Mr. Richard Clark--he's not a terrorist czar? He 
doesn't have the same powers and responsibilities that the drug 
czar has, for instance?
    But he has the task of coordinating all the various Federal 
efforts. In a sense, he has the opportunity to cross 
interdisciplinary, he can go from one department to another.
    Now, I had made an assumption that your division had that 
same unique characteristic, but really it relates to national 
security internal affairs division, your part of the puzzle.
    Do you have the jurisdiction as an assistant controller to 
organize the rest of GAO to focus attention on terrorism?
    Mr. Hinton. Yes, we've worked across, on units within GAO, 
and working with the Justice side. I work with Mr. Rabkin in 
working with those agencies who oversee HHS. I work with Mr. 
Hembra, my counterpart who handles those areas.
    Mr. Shays. Is there any one person, though, that's 
responsible? Have you been given the authority to use the other 
resources at GAO? I think Ms. D'Agostino is--you work actually 
in the same division.
    Mr. Hinton. Right.
    Mr. Shays. But how many different divisions do you have to 
interact with? I want to get a handle on the territory.
    Mr. Hinton. Within GAO, all of them. And we have a lead 
role, like a lead agency concept. Our division has the lead in 
terms of strategically thinking through the programs and 
bringing the other divisions to work with us on the issues as 
we see the need to do so.
    For example, we recently issued a report in December of 
this past year on the FBI in terms of its role and its funding. 
Mr. Rabkin did that as part of a network that we had within 
GAO. And as we cut across the other issues, we'll do that. And 
when I look at our units, Mr. Chairman, the role that we have 
played in the division that I head up is looking across the 
entire spectrum, and where we've had issues. It might go down 
the HHS track or to Justice or the law enforcement community.
    I've looked at the others, but take a vertical cut in doing 
that work for us so that we can have a complete picture.
    Mr. Shays. Let me be really specific. Do you have the 
authority from the Comptroller to be the lead person? I mean 
ultimately are you the one held accountable for the whole issue 
of terrorism, or is that somewhat an unresolved issue?
    Mr. Hinton. Within GAO I would probably say I have, at this 
point, the largest responsibility within the----
    Mr. Shays. That's not the same, though. And it's something 
that I would want to talk to the Comptroller about, because 
ultimately there needs to be one person who is held accountable 
for this whole effort, I think, within GAO.
    And that will be our responsibility, but you might express 
a concern to the Comptroller.
    Mr. Hinton. In answer to that, there is not an express 
direction by anyone in GAO. What we have is a strategic 
planning process that builds the elements for that----
    Mr. Shays. Now, this committee parallels GAO in the sense--
I'm not talking about subcommittee, I'm talking about quorum 
committee--we have this 360 degrees jurisdiction of government 
programs, much like appropriations does. They have it for 
spending, we have it for looking at waste, fraud and abuse in 
government programs. So within your GAO there exists that 360 
degrees jurisdiction.
    What we did in this committee is we spun off some 
responsibilities that we had to Justice, we spun off to another 
committee, but we wanted to make sure that we focused on 
national security, intelligence, veteran's affairs, we thought 
they were all united. But the one thing we kept clear in the 
360 degrees jurisdiction was terrorism.
    So we have it for every element, and we intend to utilize I 
think that opportunity. And the more we have been trying to 
sort out what this committee is going to focus in on, the more 
convinced I am that out biggest opportunity is to do what Mr. 
Mica is doing on the drug side within every government agency 
in prevention, interdiction and so on, we're going to look at 
the terrorist side.
    Let me conclude with this question: Do you concur, whether 
you concur, let me put it this way. I believe, and I believe 
many people who get involved in the terrorist issue believe 
that a terrorist attack or attacks will occur in the United 
States. And it's really a

question of when these attacks will occur, what kind of attack 
and where.
    And is it your general opinion that we have made good 
progress in getting a handle in organizing both the anti-
terrorist and counter-terrorist effort; do you feel that we are 
making significant headway in HHS and their role once a 
terrorist attack occurs, that we're bringing in the Justice 
Department and the FBI in terms of their responsibilities, FEMA 
and so on; do you think that we have made significant progress?
    Mr. Hinton. I think there has been quite a bit of progress 
that has been made over the last couple of years on that score, 
Mr. Chairman. In fact, I think in setting up Mr. Clark's 
situation to oversee that, though he does not have an authority 
to direct the agencies. Nevertheless, he is in a coordination 
role.
    But we have also seen money being made available to the 
individual agencies to enhance their efforts and get the 
initiatives going up. The questions that we have been raising 
from our work, though, is that where does it all take us; what 
is the end state, and how does the Federal game plan fit 
together in a comprehensive way, and what is the long-term 
spending initiative that we want to have.
    And a key part of that is making some sound threat and risk 
assessments as part of the process. We haven't seen that done. 
Therefore the real question we have is where money is going 
right now, are we targeting the money in the absence of these 
risk assessments to the highest priority programs and 
activities that we as a Nation need to be funding? That is not 
clear yet.
    Mr. Shays. Thank you. Let me ask Mr. Blagojevich, and see 
if he has any questions.
    Mr. Blagojevich. Thank you, Mr. Chairman. Mr. Hinton, in 
your testimony you describe differences between conventional 
threats and threats of chemical or biological weapons.
    Although you state that terrorists are less likely to use 
chemical and biological weapons, don't we also have to factor 
in the potential harm which in the case of chemical or 
biological weapons could be much, much greater?
    Mr. Hinton. Yes. That's the concept that we work through, 
yes.
    Mr. Blagojevich. Could you elaborate on that, please?
    Mr. Hinton. Well, I think that's one of the threats that 
clearly we need to be cognizant of and try to plan how we will 
react as a Nation against that threat and how we would manage 
the consequences of an action that we did indeed have.
    Mr. Blagojevich. The Attorney General also announced plans 
to move the NLB Domestic Preparedness Program from the 
Department of Defense to the Department of Justice. Somebody 
suggested that FEMA should take the program because of their 
traditional emergency response. Wouldn't it, moving it to 
Justice, call for even greater coordination with some of the 
training programs already operated by Justice?
    Mr. Hinton. Sir, we haven't really done an assessment of 
the pros and cons of that decision. I think there are probably 
several alternatives available. FEMA could be one, EPA could be 
one, surely Justice could be one.
    Key, I think, in terms of looking at the decision as it is 
made is to make sure that we understand the pros and cons of 
it, and when that decision is indeed made.
    Mr. Blagojevich. Can you give us a timeframe on when you 
think you might have a decision on that?
    Mr. Hinton. Right now we're not presently looking at that. 
As you know, the tentative decision is to move responsibility 
over in 2001. For the most part, I think that's where the 
administration is leaning to do it.
    I have not looked at the analysis around that. If that's 
something that the committee would like, we'd certainly be 
happy to entertain doing that.
    Mr. Blagojevich. One of the concerns with the domestic 
preparedness program that I've heard is that State and local 
first responders were confused about the number of different 
programs and resources that would be available to them. In a 
hearing before this subcommittee the last time, representatives 
of the Attorney General announced the creation of a new 
national domestic preparedness office at the FBI.
    Will this office be able to reduce confusion and streamline 
equipment lists and personnel requirements?
    Mr. Hinton. I think it's a step in the right direction, 
Congressman. Through the work we have done, we've heard the 
same concerns from people we have talked to. And I think 
setting that office up and providing the services that are 
planned for it to provide will offer a kind of one-stop 
shopping for many of the training programs and will probably 
help mitigate a lot of the confusion that is out there right 
now. And I think from that vantage point it will probably be 
viewed as a good step.
    Mr. Blagojevich. Very good. Thank you, Mr. Hinton.
    Mr. Mica. I thank the gentleman. I would like to spend a 
few minutes and ask a couple of general questions, and since I 
just joined the hearing, excuse me if I repeat anything that's 
been asked.
    First of all, terrorist threats can be numerous. They can 
be domestic, or they can be overseas involving an embassy or 
our airlines. We've seen the World Trade Center, a commercial 
center at risk. We have hundreds of thousands if not millions 
of Americans around the world and American schools overseas 
that could have a problem.
    I have become more and more convinced as we examine this 
whole problem area that you can't build a concrete wall or 
bomb-proof barrier or terrorist-proof facility around every 
individual facility.
    What appears to be one of the wisest expenditures of funds 
is for intelligence. Is that a proper assumption, and what kind 
of emphasis is being placed in your opinion, your study, on the 
question of intelligence versus hardening?
    Mr. Hinton. Mr. Mica, there is no question from where we 
sit that intelligence is a very, very important component of 
the Federal picture back there. And it is very key, and it is 
an enabler to help us prevent, help the government prevent any 
known or planned actions against it.
    And I think when you look across the entire government 
plan, there has got to be balance in that, in the whole 
strategy. Intelligence is a big part of it.
    Taking other actions around physical security and also 
consequence management, they are all components of the total 
government plan. And so I think it becomes one of balance and a 
funding decision.
    Mr. Mica. Well, again, I'm wondering if you've done any 
examination. We talked about risk assessment, and how much 
money we were spending, again, on hardening versus 
intelligence. Are there any specific recommendations that you 
have for us? I haven't read through this report here, the 
statement.
    Mr. Hinton. Right. We have made recommendations, Mr. 
Chairman, in terms of the threat risk assessments. We have not 
seen them yet, but they've been done. We think that is an 
important decision support tool that has been used in the 
private and public sectors. It helps you look at your threats, 
assess the vulnerabilities of those threats, prioritize efforts 
to mitigate against those threats and helps decide on where you 
want to put the funding.
    Intelligence is a key part of that process too, the human 
intelligence aspects are important, too. But it's part of a 
process that helps you think through the risk that is involved 
and helps you establish a good process for weighing the 
resources that you're going to apply to assess risk.
    Mr. Mica. I just left a closed briefing on the narcotics 
issue. One of the things that was brought to light was the 
resistance on the Senate side to spend adequate funds for 
intelligence.
    Are you aware of requests that have been unmet in the area 
of, again, going after terrorist threats, anything that the 
Congress hasn't done that should be done? You know, I'm not 
asking you to point a finger, but I just was told that there is 
reluctance on the part not so much of Members, but of staff on 
the Senate side to not properly fund intelligence activities.
    Mr. Hinton. Mr. Mica, I am not aware of that. It doesn't 
mean that is not a real situation, I am just not aware of that 
from the work that we have done.
    Mr. Mica. And then the other question is the way the money 
is spent. I sat on this subcommittee early on and I had the 
unfortunate experience as a Member of Congress to speak at the 
graduation of a young man in my district who several months 
later, almost a year later, ended up serving in Saudi Arabia 
and was killed, murdered in the Khobar Towers incident.
    Of course we took every measure possible after that, and I 
think we expended a third of a trillion dollars total in force 
protection. We then went back to Saudi Arabia and some of our 
other posts to look at how the money was spent.
    I was sort of stunned at the array of gadgetry that had 
been acquired. Do we overreact when we--we intended to try to 
get in as much protection for the forces as possible, but I saw 
some of these gadgets that had been purchased that may or may 
not ever be used, may or may not be suitable to, say, desert 
conditions.
    What is your assessment of, again, the equipment? The same 
thing happened after TWA 100, we spent a tremendous amount of 
money. You go through the airport now and they've got these 
very expensive, I understand, detection equipment for 
explosives.
    How cost-effective is this? Are we spending money that we 
don't need to be spending when people suddenly have their 
attention focused?
    Mr. Hinton. Mr. Mica, you're raising a very good question 
that comes back to the issue of having good, sound threat and 
risk assessments. You go through and take those, you do it by 
facility, you can do it by location, you can do it by sites or 
whatever like that, and you ask a lot of key questions around 
those assessments to try to gauge what the threat might be, 
weigh the risk and if you have gaps in the known information 
out there, you can set forth a plan of action that might 
involve the type of equipment that you need to fill the gaps 
that you see.
    Because we haven't seen those types of threat and risk 
assessments done in this area, we don't have the assurances 
that we're putting the right money, in your scenario there, 
maybe the right equipment, to fix some of the gaps that are out 
there. We haven't seen that.
    So I think your point is right on the mark. I think it 
needs to be something that's asked constantly of the executive 
branch when they come before you, and to ask well, what is the 
request that you're asking for the funds truly based on, so 
that you can have a gauge. Are we targeting the money to the 
right programs and, is it the right level of the resources?
    Mr. Mica. Again, with some of this equipment, I just 
couldn't see the practical application. We fund the money, and 
then it looks like a lot of the purchases of equipment that 
should be utilized to minimize a threat, the purchases are 
based on vendor promotion and vendor grabbing for the Federal 
dollar that's been made available.
    Do you focus on any of that or are you directed to that 
problem?
    Mr. Hinton. We haven't looked into it in depth, Mr. Mica. 
We are aware of how the money has been allocated. Some of the 
contracting that has been done. But we have not looked into the 
economies and efficiencies around the individual actions.
    Mr. Mica. Well, again, I strongly believe in risk 
assessment, cost benefit analysis, and what makes sense to you. 
Look at where the risk is, you go after it. That's why we come 
back to intelligence.
    If we had just a little bit more intelligence in Khobar 
Towers, we wouldn't have had a Khobar Towers. And then you look 
at practical solutions. I think we lost 19 young men there. 
Things like mylar on some of the windows, a lot of people died 
from glass shards. And just simple things.
    I asked the State Department, I think it was last week, 
based on the experience we had, about some of these simple 
cost-effective measures, the cautionary things, programs to 
enlighten personnel that are again, all over the planet at risk 
1,000 different ways, 1,000 times a week, and I've been trying 
to get a handle on what is cost effective.
    To your knowledge are we taking what you consider cost-
effective steps to deal with the terrorism problem?
    You know, again, specifically I pointed to the State 
Department, the other agencies with proposals in here that may 
cost us more money for equipment or personnel, but what about 
cost effective approaches?
    Mr. Hinton. Mr. Mica, I'm going to come back again and tell 
you to see that analysis around the threat and assessment, 
threat assessments that need to be done. You're not going to 
know whether or not we're targeting that money to the right 
programs and in the right amounts.
    In terms of recommendations were made, were they all 
implemented, the answer to that is we reported a couple of 
years ago it was no, not fully. And I think we've got a lot of 
history from those instances that we've got to learn from. At 
the same time, as we think about making our investments to deal 
with this issue of terrorism, I think it's very helpful to 
weigh it through risk assessment, because that kind of sorts it 
out for you, and you can look and say OK, even if I assess 
something to be a low threat, you can also through doing the 
proper assessments be able to prioritize certain types of 
funding that you may want to place against those low threats.
    And we have not seen that level of analysis as we've look 
at this issue over the last few years, and that's been the 
focus of the recommendations we've been making to the 
administration.
    Mr. Mica. One of the things that has been done by the 
administration was this Presidential Directive last May to 
designate a National Coordinator for Security Infrastructure 
and Protection, and Counter-Terrorism. And you say you 
understand some working groups have been established, but you 
haven't obtained any information.
    What's the problem? Is this not being followed through or 
are they not cooperating in giving you the information you 
need?
    Mr. Hinton. Well, we have tried to establish a working 
relationship with Mr. Clark's team at the NSC. To date we 
haven't been successful in establishing that relationship so we 
can understand where the work groups are going, to look behind 
some of the work that they've done in terms of types of 
analysis and those things, and we have not been able to get 
access to it yet.
    It's one of these things that----
    Mr. Mica. Is that both domestic and international?
    Mr. Hinton. Yes.
    Mr. Mica. It is?
    Mr. Hinton. Yes, sir.
    Mr. Mica. And on the domestic front do you know if there 
are any working groups at State and local law enforcement 
agencies?
    Mr. Hinton. Yes, sir. There are some.
    Mr. Mica. But you don't have enough information to 
evaluate----
    Mr. Hinton. Not just on that one part. I think what we 
wanted to do, sir, was to establish at our level from GAO over 
to the NSC team there, and try to look at what they were doing, 
and then we would follow that down to the State and local 
levels and see how the responses are being included in their--
--
    Mr. Mica. Are you asking for a report on that?
    Mr. Hinton. Yes, Mr. Mica, I can assure you that it's not 
going to go off the radar screen. I had a conversation with Mr. 
Clark this morning as part of this, and we're moving forward to 
try to make an arrangement to talk about some of the acute 
security issues. And we'll just have to work that and see if we 
can work this out.
    Mr. Mica. Well, it seems to be a key, I mean it's a key 
initiative. The question is whether the results--is it 
effectively being executed.
    Mr. Hinton. Right, and we would agree with you on that 
point.
    Mr. Mica. Let me ask you, in addition to some of the things 
I've mentioned about politics and the steps that have taken 
about the cost effectiveness of the steps and also the 
coordination of this. You can also do a risk assessment and a 
threat assessment relating to the type of terrorist activity 
we're going to see.
    They are either going to use explosives or they are going 
to use some from of chemical weapon maybe a little bit further 
down the pike, getting a hold of some type of military 
equipment. How do you think these should be ranked, and how do 
we rank them as far as threats? Then I have a followup 
question: what progress are we making in each of the areas? 
Maybe you can elaborate.
    Ms. D'Agostino. What we've been told by the intelligence 
community is that there are a number of types of threats, and I 
think we point out in our statement, that the weapon of choice 
for terrorists is a conventional bomb. And further down the 
list of likely weapons, are--and people aren't in total 
agreement or consensus on this yet--certain chemicals and 
certain biological agents.
    We have seen various analyses in our threat briefings from 
different parts of the intelligence community, on both the 
foreign origin threats and the domestic threats. What the FBI 
has seen in cases, et cetera.
    In terms of whether the resources are completely aligned or 
misaligned, I don't think we've done the kind of analysis that 
would allow us to say, one way or the other. But these threat 
and risk assessment processes would get you of the answers you 
are looking for.
    The threat and risk assessment model we have highlighted in 
one of our reports incorporates methodology to get at the 
appropriate countermeasures to deal with the higher risk and 
more severe consequence scenarios that get generated by a 
multidisciplinary team of experts.
    And that is the way you get to targeted countermeasures--
through the threats that are the most likely to be faced.
    Mr. Mica. Mr. Chairman, did you have anything?
    Mr. Shays. No, sir.
    Mr. Mica. I yield to Mr. Blagojevich. He's going to have to 
leave.
    Mr. Blagojevich. Thank you. I was a little concerned with 
your discussion about the vaccination stock-piling program. You 
mentioned that the HHS is dealing with this threat of risk 
assessment.
    Has GAO talked with anyone at HHS or CDC about the process 
they are using for determining vaccines to stockpile, and if 
so, who have you spoken with?
    Ms. D'Agostino. We have spoken with HHS and we plan to 
visit CDC, but the Office of Emergency Preparedness at HHS, Dr. 
Bob Knouss, a Public Health Service official who is basically 
responsible for this initiative under Dr. Margaret Hamburg, 
Assistant Secretary. And the process they used is very unclear 
that they have followed. To our understanding, according to Dr. 
Knouss, there is no documented assessment, and it makes it 
difficult to understand the process and methodology in how the 
players in their process derived a list of items that they have 
presented in their operating plan.
    Mr. Blagojevich. Thank you.
    Mr. Mica. I'm a pretty strong proponent, as you've heard, 
of risk assessment and targeting, and I notice that toward the 
conclusion of your comments to the subcommittee you said the 
National Security Council has not fully embraced or implemented 
all the recommendations as far as this type of an approach. 
What's the problem?
    Mr. Hinton. It's not fully clear to us yet, Mr. Mica. We 
have been making that recommendation for the last 2 years, I 
believe it has been, and I don't know what the reluctance is, 
because I think that as you look at a threat and risk 
assessment, that's really an assistance, support tool. And I 
would agree with the administration that they really put a lot 
into this over the last 2 years, but this has not been a 
priority with them as they've gone through it.
    The second part of that is, throughout the reporting by 
OMB, we really haven't seen how they have sorted out the 
priorities for the program. And we too think that relates 
directly back to the threat and risk assessments, and until you 
have those established linkages it's difficult to determine 
what the priority is going to be in the spending and whether or 
not, as I mentioned earlier, we've got the moneys going to the 
right programs or not.
    Mr. Mica. Well, since we're spending an incredible amount 
of money on this effort, my other concern becomes a question 
about duplication of effort and some of the information we've 
been provided sounds a little bit like the Keystone Kops, where 
you have agencies that are only duplicating activities or are 
tripping over each other and involved in some of the threat 
where there is an investigation or something of that nature.
    Can you describe to the subcommittee what you see as far as 
duplication, as far as this scenario out there of utilization 
of agency resources?
    Mr. Hinton. Right. As I alluded to in my opening statement, 
what we've seen is a rapid growth in a lot of the Federal 
programs and activities across a large amount of the programs, 
and they all have similar focuses. And at the State and local 
level we might be scratching our head and saying well, are they 
all helping me or hurting me, because we've got so many coming 
at us at one time.
    We've seen efforts on the part of the Department of Justice 
to set up an office, for example, to help sort through the 
number of training programs that are being made available, and 
in effect putting a one-stop shopping for those people at the 
State and local levels to come to the Federal Government.
    I think that would help in terms of mitigating a lot of the 
confusion that is out there right now, but as we have watched 
the dollars grow, and looked at the number of Federal agencies, 
the objectives of the programs, we've seen a lot of overlap, 
and it's been in the areas of training, equipment and those 
type of things that would be what the first responders would be 
using in the event of an incident.
    Mr. Mica. What about equipment?
    Ms. D'Agostino. The number of equipment programs have also 
been growing, notwithstanding the new National Domestic 
Preparedness Office. I think they are trying to do some good 
things in that office. It's a very new office. The Attorney 
General just announced it in November 1998.
    I think they need to get underway. But it's not clear how 
far that office can go in terms of eliminating or reducing 
duplication going on. They can be the store front, as it were, 
for the one-stop shop. But it's still not clear to us how 
they're going to proceed to actually reduce the number and 
rationalize the various programs for training and equipment.
    Mr. Mica. So it's sort of----
    Ms. D'Agostino. It's just not clear yet how far it's been--
--
    Mr. Mica. They spend whatever they want without 
rationalization and without any coordination, and this is sort 
of an agency by agency spin?
    Mr. Hinton. Well, we have a lot of agencies working this 
issue right now, Mr. Mica.
    Mr. Mica. What about programs, to get back to my question 
relating to coordination efforts from the May edict of last 
year insofar as the counter-terrorism, the National Coordinator 
and their efforts to assist local governments?
    You said you don't have much information on that, and you 
don't have that?
    Mr. Hinton. Right, we have not gotten to that point. That 
will be one of the areas we'll be pursuing.
    Mr. Mica. Do you know if this coordinator is looking at the 
sort of questions that are raised, that of Mr. Clark, relating 
to duplication? Is his charter, and not that committee, to look 
at many of these overlaps in jurisdiction, equipment?
    Mr. Hinton. He's in a very integral role there as a 
coordinator. This morning when we received the briefing, there 
was a process described to us of how they work together as a 
team, OMB and Mr. Clark, to look at potential duplication of 
effort, and weed it out.
    We have not seen any of that process. We have not seen 
examples of that process--of where they have identified the 
duplication and how they have constructively dealt with it.
    Also, while it's a requirement that that be identified in 
the reports that OMB provides up to the Congress annually, 
that's one of the areas that we have not seen a discussion of 
in the OMB reports as to how they went about it or some of the 
areas that they've identified, and how they have dealt with it.
    Mr. Mica. But because you have multi-agency jurisdiction, 
and jealousies and just the difficulty of getting the things 
done, do you think it would be wise to have someone with say, 
the equivalent of the drug czar or terrorism czar? I'm not sure 
of this National Coordinator has any of those abilities to 
coordinate under the Presidential edict.
    Do you think there should be something legislative to 
consolidate and give some authority and oversight?
    Mr. Hinton. I'm not at that point that I think I would 
suggest that legislation is needed yet, Mr. Mica. I heard this 
morning of how they have been working this issue. It was clear 
to me that in dealing with it, it's a leadership issue. I don't 
know that legislation is a complete answer.
    If you had the right leadership, the right goals, the right 
strategy and the teamwork, and if you can set out the 
priorities for the program, and I think if you could get the 
team working together you can help sort through some of the 
duplication.
    Our difficulty is we haven't seen how it's worked, yet. We 
know there's been a lot of program growth. We've heard this 
morning that they've been dealing with some instances of 
duplication. We're not sure how that process is working the way 
it is currently structured.
    Mr. Mica. To your knowledge are there any inter-agency 
working agreements in this regard, and if so, where and how 
effective do you think they are?
    Mr. Hinton. It was described to us this morning that the 
inter-agency process is working well.
    Mr. Mica. Do they have written formal agreements to that?
    Mr. Hinton. They're working on them, and I need to mention 
something. We have a report that we delivered to this committee 
in December. It's restricted. It deals with that issue. And not 
all of the key agreements have been worked out.
    Mr. Mica. Is it possible to reveal to the subcommittee 
publicly which agencies we're having difficulty with?
    Mr. Hinton. No, some of the key areas of this agreement 
which have not been resolved involve Justice, FBI, State and 
Secret Service.
    Mr. Mica. So we really don't have in place effective 
working agreements, inter-agency agreements?
    Mr. Hinton. On the ones that are cited in our report, they 
are some of the key points. But I really can't go into those in 
open session.
    Mr. Mica. And do you believe that we could do a better job, 
and probably some pressure needs to be brought to it?
    Mr. Hinton. In the areas that we have reported on, I think 
it is critical that they get resolved.
    Mr. Mica. Did you have something that you wanted to add?
    Ms. D'Agostino. No, I was just going to say that really in 
the counter-terrorism area they have done a lot in terms of 
putting together operating guidelines. They're still working on 
finalizing those, since PDD 39 was issued in 1995. But they 
have really done quite a bit of impressive work, and they 
should get credit for that. But there are still areas where 
they need to work out some rough spots. And it's a big 
challenge, it's a huge challenge.
    Mr. Mica. Well, I think this hearing reveals that that is 
in fact the case, and I don't think anyone in the Congress, 
particularly the members of this subcommittee, would hesitate 
for a minute to expend whatever funds, provide whatever 
resources are necessary to see that we combat terrorism.
    I think our major concern is that the dollars that are 
expended are expended in a wise, coordinated fashion, and that 
we conduct some basic assessment, and that we expend those 
moneys in a cost-effective manner.
    I think that's the purpose of this whole exercise. I do 
thank each of you for your testimony and for providing me with 
answers to my questions.
    Mr. Chairman, can I yield back to you?
    Mr. Shays. Thank you. I just have one last question that 
hasn't been asked, and that would be, what would you want to 
see in next year's report that you don't see in this year's 
report? Has that been asked?
    Mr. Hinton. The one that would be coming up from OMB?
    Mr. Shays. Yes.
    Mr. Hinton. I think what I would like to see is some 
establishment of a process that yields a defined parties with 
spending that's going to happen in the program, so that that 
would give the Congress and it's authorization and 
incorporation rules some sense of where the future priorities 
are going to be.
    What you have right now is an accumulation, which I think 
is very important, that's an important first step to get a 
handle on where the money has been going. What it does not show 
is what the future is going to hold.
    And Mr. Chairman, why I think that is important is that as 
you go through and set up programs, when those moneys are made 
available, they in effect start an infrastructure, they start 
building programs. And once you start them it's sometimes 
difficult to turn them off, as we've seen with weapons systems 
and those type of things, and we're at some of the critical 
junctures in this program right now. And I think that it's 
important to make sure we understand what the future holds for 
the spending priorities so that you can get a sense of how they 
change from year to year.
    And that's not in that report right now, and I think it 
would be fairly constructive to have that.
    Mr. Shays. Mr. Rabkin, did you have anything that you 
wanted to share with the committee that you think we should put 
on the record?
    Mr. Rabkin. It's interesting that the analogy has been 
drawn a number of times this morning and this afternoon about 
the relationship between the counter-terrorism effort and the 
executive branch and Congress and the drug war, and 
acknowledging the differences there.
    Mr. Mica asked about legislation to require or to set up 
mandates and activities for the counter-terrorism czar, if 
that's what you want to call Mr. Clark in his position.
    The models that have been established for dealing with the 
counter-terrorism effort and the drug effort are two different 
models. I don't think either one is more effective than the 
other, although there are advantages and disadvantages. And I'd 
just like to suggest that one of the advantages of the 
legislative route that was used by the Congress to establish 
the drug czar is specifically defining the responsibilities in 
one individual for the oversight, for the coordination of the 
activities, for the preparation of the plan, for the reporting 
of the budget, and more recently for the establishment of 
performance measures.
    Right now the counter-terrorism effort is split between the 
National Security Coordinator and OMB. I think there would be 
some advantage to combine responsibilities to get a strategy 
that's typed in the budget and is also tied to performance 
measures. They, the agencies, especially at the State and local 
level, and the Congress can then understand where they're going 
and whether they're making adequate progress with the resources 
that would be invested.
    Mr. Shays. Thank you. Ms. D'Agostino, do you have any 
comments before we close?
    Ms. D'Agostino. I think another important thing to think 
about when you try to think about solutions or whether a czar 
is better than a National Security Council Coordinator is 
accountability and the insight that Congress gets into where 
we're going
    Mr. Shays. Thank you. Mr. Mica, you have an advantage with 
the drug czar that he basically has to report to Congress, he's 
works out of the White House, but is he accountable to the 
Congress?
    Mr. Mica. That's true, but we can also call Mr. Clark in. 
The problem is, without legislative authority you sort of just 
suggest, how about you guys go out and work on this? He doesn't 
have any clout. The problem that I have picked up here is that 
we have inter-agency jealousies, and you have everybody going 
after as many Federal bucks as you can to buy every gadget they 
can. It's not being evaluated on a cost-effective basis or a 
risk assessment basis, because that way there is, should we be 
spending the bucks there.
    It is sort of a grab bag, everybody trying to get what they 
can. And if we go out there and see what they're buying, what 
stuns me is a lot of the equipment, almost all the equipment I 
saw like in Saudi Arabia, is foreign manufactured, and I just 
went bananas when I saw a quarter of a trillion dollars being 
spent.
    Now, some of it may help. Some of it, I don't even know if 
it was adaptable in that context to desert use. But I think if 
you look at the Department of State with their terrorism 
program, and then look at the FBI, the whole thing doesn't 
sound like it's coordinated, like we're spending dollars 
effectively, like we're targeting--what's most disturbing is 
you have their testimony today that OMB is not using a risk 
assessment approach, that they target different--and they're a 
partner with Clark in this whole decision of what's going on 
and where the bucks go.
    So it needs some very thorough further examination in my 
estimation, and I would hope to get Clark in here. There are 
great questions about what has been done as far as his hard 
actions to work with the agencies, and then I just heard there 
are inter-agency agreements that are critical to this whole 
thing that have not come together. I think DOD, Department of 
Justice, FBI are a few that are more disturbing, and I think at 
the Department of State, we have a lack of not only 
cooperation, but direction, and a lack of financial 
responsibility, lack of accountability, lack of using standards 
that are appropriate for the expenditures of targeting taxpayer 
dollars.
    Other than that, everything looks fine!
    Mr. Hinton. Actually, the irony is that we have made some 
progress, so that tells you the state of affairs.
    Mr. Mica. If you spend enough money you can make progress.
    Mr. Hinton. Mr. Chairman I think it is very important to 
recognize the accomplishments on two fronts. And Congress was 
instrumental in having OMB do the annual reporting, what we're 
spending, that was a key first step. I think the Attorney 
General's 5-year report, where the agencies are going in terms 
of combatting terrorism is another significant step that has 
come, that's a very significant effort.
    When you look across the universe of agencies that have 
been involved in that, and thinking out a broad strategy, it's 
bogged right now, but there's going to be something that is 
going to evolve as we heard this morning as they fine-tune it.
    And I think and even designating Mr. Clark, even though he 
doesn't have a lot of authority to direct the agencies, that 
too was a step. It's a step, Mr. Mica, that we took in the case 
of the drug area, too, many years ago, and to where we've got 
now, where we have a strategy, we've got measurable goals.
    We're seeing some of that come out in the Attorney 
General's report, too.
    Mr. Shays. So you would argue that the drug czar model may 
be a model that we might want to suggest for this position?
    Mr. Hinton. Mr. Chairman, I think it's one model that's out 
there. There may be others, and as we do our work and we can 
look at what works and what doesn't work, I think that that's 
something we can continue to discuss. And I think as we look 
over this area that's very important, because right now, as I 
mentioned earlier, while there have been significant steps that 
have been taken by the executive branch to deal with this 
issue, there are some key agreements that have not been fully 
resolved.
    It's the subject of a report that was delivered to this 
committee in December that's restricted. And I think that's 
very important in this very significant area.
    Mr. Shays. I thank you. If there is no further business to 
come before this subcommittee, I want to thank the witnesses 
again for their participation, for their assistance and 
testimony today.
    This meeting is adjourned.
    [Whereupon, at 2:38 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
